                                        SOCIAL SECURITY
MEMORANDUM

Date:      May 22, 2008                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Quick Response Evaluation: Underpayments to Widows (A-01-08-28116)


           The attached final report presents the results of our review. Our objective was to
           quantify the amount of Title II benefits owed a group of widows whose benefits were not
           properly adjusted at full retirement age.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O’Carroll

           Attachment
QUICK RESPONSE
 EVALUATION

Underpayments to Widows

      A-01-08-28116




        May 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                          Background
OBJECTIVE
Our objective was to quantify the amount of Title II benefits owed a group of widows
whose benefits were not properly adjusted at full retirement age (FRA).

BACKGROUND
The Social Security Administration (SSA) administers the Old-Age, Survivors and
Disability Insurance program under Title II of the Social Security Act. 1 The program
provides monthly benefits to retired or disabled workers and their families and to
survivors of deceased workers.

Some individuals are dually entitled to both disability benefits based on their own
earnings history and widow’s benefits based on their deceased spouse’s earnings. 2
Although disability benefits are generally not reduced based on the beneficiaries’ age,
widow’s benefits are reduced when beneficiaries elect to receive them before they
reach FRA. However, if the widow’s benefits started when the disability benefits began
or later, the widow’s benefits are adjusted and the reduction for age is eliminated when
disability benefits end and retirement benefits are awarded. Usually, this occurs when
the beneficiaries attain FRA. 3 In December 2006, about 3.6 million beneficiaries were
dually entitled to both retirement benefits and widow’s benefits. 4

SSA technicians are instructed to prepare manual diaries to control cases in which
disability beneficiaries become entitled to reduced widow’s benefits, to ensure the
appropriate adjustments are made when disability ends and retirement benefits are
awarded. 5 In addition, SSA’s Title II Redesign system produces alerts when these
beneficiaries attain FRA. SSA technicians then determine whether adjustments to the
widow’s benefits are needed. Because the Agency does not have an automated
system to make the necessary adjustments, employees must take manual actions to
ensure these beneficiaries are paid correctly.


1
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
    Throughout this report, we use the term “widows” to include both widows and widowers.
3
 Social Security Act § 202(q)(3), 42 U.S.C. § 402(q)(3). FRA for people born before January 2, 1938 is
age 65. The FRA increases gradually until it reaches age 67 for people born January 2, 1960 or later.
Social Security Act § 216(l), 42 U.S.C. § 416(l). See also SSA’s Program Operations Manual System
(POMS), RS 00615.003.
4
    SSA, Annual Statistical Supplement, 2007 (Table 5.G2).
5
    SSA, POMS, RS 00615.482(C).


Underpayments to Widows (A-01-08-28116)                                                                  1
In May 2007, we issued a report on Adjustment of Widow’s Insurance Benefits at Full
Retirement Age (A-01-07-27122). Based on the results of our audit, we estimated that
about 9,751 beneficiaries were underpaid approximately $113.7 million through
November 2006. In May 2008, SSA reported these widow’s records were reviewed and
corrected in Fiscal Year 2007. Because SSA corrected the benefits for these widows,
they will receive about $137.8 million in additional payments over the rest of their lives.

As a result of our findings, we recommended that SSA review the automated programs
in use and make necessary modifications to ensure all widows’ cases requiring
adjustment are properly identified and controlled. SSA agreed and planned to
implement a computer system enhancement in May 2008.

Because the population used for our May 2007 audit was identified in 2004, we
indicated in that report that we would conduct additional analysis to identify a more
recent population of widows who may have been underpaid. Therefore, we identified
9,603 widows who were not in the prior audit population but appeared to be underpaid.
In March 2008, we referred these new cases to SSA’s Office of Operations for review
and corrective action. SSA informed us it began working these cases in April 2008 and
expects to complete them all in Fiscal Year 2008.

We selected a random sample of 200 cases from this new population for detailed
analysis. (See Appendix A for additional information about our scope, methodology and
sample results.)




Underpayments to Widows (A-01-08-28116)                                                  2
                                                           Results of Review
Based on the results of our review, we estimate that about 8,403 beneficiaries were
owed approximately $95 million through February 2008. In addition, if SSA does not
take action to correct the benefits paid to these widows, we estimate they will continue
to be underpaid about $211 million over the rest of their lives. 6

SAMPLE RESULTS
SSA did not properly adjust the benefits to the 200 widows in our sample when they
attained FRA. As a result, the widows were not paid all of the benefits due them.
Although the Agency detected 25 of these cases before our review and adjusted the
benefit amounts, the remaining 175 cases went unresolved. These 175 widows were
owed approximately $2 million through February 2008.

For example, one widow attained FRA in April 1994 and her disability benefits were
converted to retirement benefits. At that time, she was entitled to receive an additional
$231 per month in widow’s benefits. As of February 2008—when she was 78 years
old—her benefits had not been adjusted and, as a result, she was owed approximately
$45,970. Unless SSA takes action to correct her benefit payments, we estimate she will
be underpaid an additional $35,802 in the future.

We found that 3 of the 175 underpaid widows in our sample died and never received the
additional amounts due them. These widows were owed about $18,417 before their
deaths. 7 For example, one widow attained FRA in December 1999. At that time, SSA
should have begun paying her an additional $103 per month in widow’s benefits. She
died in 2007 (at the age of 73) without receiving the additional $10,964 owed her.




6
  To estimate the amount of additional benefits that will be owed these widows in the future, we multiplied
the last monthly underpayment amount by the number of months the beneficiaries are expected to live
beyond February 2008. We used the life expectancy rates published by the Department of Health and
Human Services, Centers for Disease Control and Prevention (National Vital Statistics Report, Vol. 56,
No. 9, Tables 2 and 3, December 28, 2007).
7
 An underpayment due a deceased beneficiary is payable to the surviving spouse, surviving children,
other family members, or legal representative of the estate. 20 C.F.R. § 404.503(b). See also POMS,
GN 02301.030.


Underpayments to Widows (A-01-08-28116)                                                                   3
UNDERPAYMENTS TO THE WIDOWS IN OUR POPULATION
We found the beneficiaries in our population were underpaid because their benefits
were not adjusted when they attained FRA and their disability benefits were converted
to retirement benefits. As of February 2008, an average of about 7 years had elapsed
since the beneficiaries attained FRA. The following table summarizes the number of
years the beneficiaries in our population had been potentially underpaid. 8

                   Period Potentially
                                                          Beneficiaries
                      Underpaid
                       Up to 3 years                  3,725                39%
                        4 to 6 years                  1,295                13%
                        7 to 9 years                  1,885                20%
                      10 to 12 years                  1,286                13%
                      13 to 15 years                     651                7%
                      16 to 18 years                     362                4%
                      19 to 21 years                     171                2%
                      Over 21 years                      228                2%
                            Total                     9,603              100%
                     Average Period                            7 Years
                      Median Period                            6 Years




8
 This represents the time that elapsed between the dates the beneficiaries attained FRA and the earlier
of their dates of death or February 2008, when we reviewed our data.


Underpayments to Widows (A-01-08-28116)                                                                   4
                                  Matters for Consideration
The benefits to the widows in our population were not properly adjusted when they
attained FRA and, as a result, they were not paid all of the benefits due them. Although
the Agency detected some of these cases before our review and adjusted the benefit
amounts, most of the cases went unresolved.

We estimate about 8,403 widows were owed approximately $95 million through
February 2008. In addition, we estimate these widows will continue to be underpaid
about $211 million in the future unless SSA takes action to correct the benefits paid to
them.




Underpayments to Widows (A-01-08-28116)                                                    5
                                          Appendices
APPENDIX A – Scope, Methodology and Sample Results

APPENDIX B - OIG Contacts and Staff Acknowledgments




Underpayments to Widows (A-01-08-28116)
                                                                                Appendix A

Scope, Methodology and Sample Results
To accomplish our objective, we:

       Reviewed applicable sections of the Social Security Act and Social Security
        Administration (SSA) regulations, policies and procedures.
       Identified a file of 9,603 individuals receiving benefits in January 2008 whose
        benefits appeared to have not been properly adjusted when they attained full
        retirement age (FRA) and their disability benefits were converted to retirement
        benefits. 1
       Randomly sampled 200 beneficiaries from the population for detailed analysis.
        For each sampled beneficiary, we reviewed the electronic benefit records on
        SSA’s systems.
            If benefits should have been adjusted at FRA but were not, we calculated
             the amount of benefits that should have been paid between the
             beneficiary’s FRA and the earlier of February 2008 or his/her date of death.
            If the beneficiary was receiving benefits, we multiplied the last monthly
             underpayment amount by the number of months the beneficiary was
             expected to live beyond February 2008, to estimate the amount of
             additional benefits that will be owed in the future. 2

We performed our review in March and April 2008 in Boston, Massachusetts. We
tested the data obtained for our review and determined them to be sufficiently reliable to
meet our objective. We conducted our review in accordance with the President’s
Council on Integrity and Efficiency’s Quality Standards for Inspections.




1
 We compared this population to that of our prior audit—Adjustment of Widow’s Insurance Benefits at
Full Retirement Age, (A-01-07-27122), May 2007—to ensure that no beneficiaries were included in both
populations.
2
  We used the life expectancy rates published by the Department of Health and Human Services, Centers
for Disease Control and Prevention (National Vital Statistics Report, Vol. 56, No. 9, Tables 2 and 3,
December 28, 2007).


Underpayments to Widows (A-01-08-28116)                                                           A-1
POPULATION AND SAMPLE INFORMATION

                   Table 1: Population by Program Service Center.
                                                                   Number of
                     Responsible Program Service Center
                                                                  Beneficiaries
                   Northeastern Program Service Center                    1,407
                   Mid-Atlantic Program Service Center                    1,486
                   Southeastern Program Service Center                    1,952
                   Great Lakes Program Service Center                     1,579
                   Western Program Service Center                         1,710
                   Mid-America Program Service Center                     1,391
                   Office of International Operations                        78
                                      Total                               9,603



 Table 2: Population by State.
     State                         Count                 State                       Count
     Alabama                         218                 Montana                       50
     Alaska                           13                 Nebraska                      34
     Arizona                         175                 Nevada                        73
     Arkansas                        134                 New Hampshire                 59
     California                      905                 New Jersey                   301
     Colorado                        118                 New Mexico                    47
     Connecticut                      97                 New York                     554
     Delaware                         30                 North Carolina               348
     District of Columbia             11                 North Dakota                  29
     Florida                         561                 Ohio                         452
     Georgia                         284                 Oklahoma                     140
     Hawaii                           29                 Oregon                       168
     Idaho                            46                 Pennsylvania                 503
     Illinois                        381                 Puerto Rico                  175
     Indiana                         173                 Rhode Island                  56
     Iowa                             80                 South Carolina               215
     Kansas                           75                 South Dakota                  27
     Kentucky                        199                 Tennessee                    255
     Louisiana                       114                 Texas                        428
     Maine                            64                 Utah                          54
     Maryland                        108                 Vermont                       19
     Massachusetts                   194                 Virginia                     208
     Michigan                        347                 Washington                   179
     Minnesota                        97                 West Virginia                138
     Mississippi                     143                 Wisconsin                    190
     Missouri                        209                 Wyoming                       18
                                                         Outside the United States     78



Underpayments to Widows (A-01-08-28116)                                                      A-2
  Table 3: Population and sample size.
  Population Size                                                                                 9,603
  Sample Size                                                                                       200



 Table 4: Beneficiaries who were underpaid because their benefits were not properly adjusted
 when disability ended and retirement benefits were awarded at full retirement age.
                                      Number of widows          Additional benefits   Estimated additional
                                      underpaid through           owed through        benefits to be owed
                                        February 2008             February 2008       after February 2008
 Identified in Sample                              175                 $1,979,828            $4,401,242
 Point Estimate                                 8,403                $95,061,451           $211,325,654
 Projection Lower Limit                         7,974                $83,416,734           $188,789,798
 Projection Upper Limit                         8,750               $106,706,168           $233,861,510
Note: All projections are at the 90-percent confidence level.




Underpayments to Widows (A-01-08-28116)                                                                   A-3
                                                                      Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division, 617-565-1765

   Jeffrey Brown, Audit Manager, 617-565-1814

Acknowledgments
In addition to those named above:

   Chad Burns, Auditor
   Kevin Joyce, IT Specialist
   Katie Toli, Auditor
   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-08-28116.




Underpayments to Widows (A-01-08-28116)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
